<html>
<title> - THE RULE OF LAW AND CIVIL SOCIETY IN AZERBAIJAN</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



114th Congress                            Printed for the use of the

1st Session         Commission on Security and Cooperation in Europe
____________________________________________________________________

 
         THE RULE OF LAW AND CIVIL SOCIETY IN AZERBAIJAN


            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          NOVEMBER 5, 2015


                           Briefing of the

           Commission on Security and Cooperation in Europe
_____________________________________________________________________

                            Washington: 2016




           Commission on Security and Cooperation in Europe
                   234 Ford House Office Building
                         Washington, DC 20515
                              202-225-1901
                         <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccafbfafa98ca1ada5a0e2a4a3b9bfa9e2aba3ba">[email&#160;protected]</a>
                         http://www.csce.gov
                             @HelsinkiComm



                 Legislative Branch Commissioners

              HOUSE                                   SENATE
CHRISTOPHER H. SMITH, New Jersey           ROGER WICKER, Mississippi,
 Chairman                                   Co-Chairman
ALCEE L. HASTINGS, Florida                 BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                  RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                     JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                      TOM UDALL, New Mexico
RANDY HULTGREN, Illinois                   SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
 New York
                                               
                                       

                    Executive Branch Commissioners

                         Department of State
                        Department of Defense
                        Department of Commerce

                                 (ii)

  



   ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and Cooperation 
in Europe (OSCE). The membership of the OSCE has expanded to 56 
participating States, reflecting the breakup of the Soviet Union, 
Czechoslovakia, and Yugoslavia.

The OSCE Secretariat is in Vienna, Austria, where weekly meetings of the 
participating States' permanent representatives are held. In addition, 
specialized seminars and meetings are convened in various locations. 
Periodic consultations are held among Senior Officials, Ministers and Heads 
of State or Government.

Although the OSCE continues to engage in standard setting in the fields of 
military security, economic and environmental cooperation, and human rights 
and humanitarian concerns, the Organization is primarily focused on 
initiatives designed to prevent, manage and resolve conflict within and 
among the participating States. The Organization deploys numerous missions 
and field activities located in Southeastern and Eastern Europe, the 
Caucasus, and Central Asia. The website of the OSCE is: <www.osce.org>.

   ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to monitor 
and encourage compliance by the participating States with their OSCE 
commitments, with a particular emphasis on human rights.

The Commission consists of nine members from the United States Senate, nine 
members from the House of Representatives, and one member each from the 
Departments of State, Defense and Commerce. The positions of Chair and Co-
Chair rotate between the Senate and House every two years, when a new 
Congress convenes. A professional staff assists the Commissioners in their 
work.

In fulfilling its mandate, the Commission gathers and disseminates relevant 
information to the U.S. Congress and the public by convening hearings, 
issuing reports that reflect the views of Members of the Commission and/or 
its staff, and providing details about the activities of the Helsinki 
process and developments in OSCE participating States.

The Commission also contributes to the formulation and execution of U.S. 
policy regarding the OSCE, including through Member and staff participation 
on U.S. Delegations to OSCE meetings. Members of the Commission have 
regular contact with parliamentarians, government officials, 
representatives of non-governmental organizations, and private individuals 
from participating States. The website of the Commission is: 
<www.csce.gov>.

                             (iii)



          THE RULE OF LAW AND CIVIL SOCIETY IN AZERBAIJAN

                           ____________

                        November 5, 2015

                          COMMISSIONER
                 
                                                                             Page

Hon. Robert B. Aderholt, Commission on Security and Cooperation in Europe....   6

                          PARTICIPANTS

Shelly Heald Han, Policy Advisor for Economics, Environment, Technology and 
Trade, Commission on Security and Cooperation in Europe......................   1
 
Ambassador Richard Morningstar, Founding Director of the Global Energy 
Center, Atlantic Council.....................................................   2

Natalia Bourjaily, Vice President-Eurasia, International Center for Not-
For-Profit Law...............................................................   4

Dinara Yunus, Daughter of Imprisoned Azerbaijani Human Rights Defenders 
Leyla and Arif Yunus.........................................................   6


                                 (iv)



          THE RULE OF LAW AND CIVIL SOCIETY IN AZERBAIJAN
                             ____________


                            NOVEMBER 5, 2015

           Commission on Security and Cooperation in Europe

                             Washington, DC

The briefing was held at 2 p.m. in room 311, Cannon House Office Building, 
Washington, DC, Shelly Heald Han, Policy Adviser for Economics, 
Environment, Technology and Trade, Commission on Security and Cooperation 
in Europe, moderating.

Commissioner present: Hon. Robert B. Aderholt, Commission on Security and 
Cooperation in Europe.

Panelists present: Shelly Heald Han, Policy Adviser for Economics, 
Environment, Technology and Trade, Commission on Security and Cooperation 
in Europe; Ambassador Richard Morningstar, Founding Director of the Global 
Energy Center, Atlantic Council; Natalia Bourjaily, Vice President-Eurasia, 
International Center for Not-For-Profit Law; and Dinara Yunus, Daughter of 
Imprisoned Azerbaijani Human Rights Defenders Leyla and Arif Yunus.

Ms. Han. Good afternoon. On behalf of Chairman Smith I'd like to welcome 
you all to this briefing on Azerbaijan, hosted by the Commission on 
Security and Cooperation in Europe, also known as the Helsinki Commission.

This past Sunday Azerbaijan held a parliamentary election. Unfortunately, 
the outcome was not a surprise because voting on Election Day had nothing 
to do with the results of the election. The outcome was determined well 
before Election Day when the majority of opposition candidates were not 
allowed on the ballot, when there was no mechanism for debate on 
television, when voters didn't feel free to sign petitions for candidates 
that they supported, and when election monitors faced intimidation or, as 
in the case of Anar Mammadli, sit in jail.

Azerbaijan has voluntarily committed itself through the OSCE and the 
Council of Europe to abide by minimum standards of elections, but has 
consistently failed to do so. So why, then, are we focused on these 
elections? One phenomenon that we're seeing in Azerbaijan is rule by law 
instead of rule of law. And a parliament that is handpicked by the 
president is a huge impediment to moving from rule by law to rule of law. 
Restrictive laws on NGOs or the media become fig leaves for authoritarian 
governments.

Another key indicator is the media. Azerbaijan has a plethora of media 
outlets, but there is a dearth of independent voices. They have been shut 
down or the journalists, as in the case of Khadija Ismayilova, have been 
imprisoned. Democracy is a journey, not a destination. The commitment to 
democracy must be reaffirmed in every vote of parliament, in every 
election, and in every decision by the courts. And if wrong decisions are 
made--and there will be wrong decisions because democracies are run by 
humans--there must be a system for correcting those mistakes.

In some cases, the media will expose a wrong or voters will elect new 
leaders or judges will free a person who's been wrongly convicted. What 
matters is that there are systems in place for course correction. Can 
people read about the problems in the newspapers or hear about them on TV? 
Can people hold their government accountable? What we have in Azerbaijan is 
a situation where there is an abundance of elections and an abundance of 
media, but actually no true mechanism for the practice of democracy.

To help us better understand the current situation in Azerbaijan, we have 
three panelists from diverse backgrounds to talk about different aspects of 
the issue. First, we have Ambassador Richard Morningstar, who from July 
2012 to August 2014 was the U.S. ambassador to Azerbaijan. And then we have 
Ms. Natalia Bourjaily, who is an expert on international law, and has 
specific expertise in NGO law. And then finally, Ms. Dinara Yunus, who is 
the daughter of Leyla Yunus and Arif Yunus, two prominent civil society 
activists who are currently serving lengthy prison sentences in Azerbaijan. 
Full bios of the participants have been distributed, so I won't read those. 
Ambassador Morningstar, can you get us started, please?

Amb. Morningstar. Thank you very much, Shelly. And thank you for the 
opportunity to be able to discuss these issues here today.

I left my post as United States ambassador to Azerbaijan a year ago August, 
and have had time to reflect on my experience in Baku and to reflect on the 
state of U.S.-Azerbaijani relations. I speak as somebody who first visited 
Azerbaijan 20 years ago, and somebody who has great respect and admiration 
for the country, its people, its many accomplishments--and there have been 
many accomplishments--and its majestic beauty. At the same time, I look at 
our bilateral relationship today with great disappointment. It seems as if 
we have become two trains passing in the night. Despite the fact that our 
two countries have made common strategic interests, our relationship 
remains problematic at best.

Two major factors, I think, have contributed to that deterioration. The 
first has been continuing human rights issues, particularly since the 
presidential election in October 2013, and the United States criticism of 
the Azerbaijani Government. And second, the lack of progress towards a 
settlement of the long-standing dispute over Nagorno-Karabakh and 
surrounding occupied territories. Azerbaijan believes that the United 
States should take stronger steps to bring about resolution of the 
conflict, particularly to more directly recognize Azerbaijan's sovereignty 
over the occupied territories and pressure Armenian withdrawal from them.

Together, these issues have created, I think, a perfect storm in the 
relationship. And I think for some time that there has been a vicious 
circle in our relationship--Azerbaijani rights violations, U.S. criticism, 
over-the-top Azerbaijani reactions, and more issues, and more criticism. I 
certainly empathize with the plights of several prisoners, including the 
Yunuses. I know Leyla Yunus quite well. And for the life of me, I just 
don't understand what she and her husband could have done to justify the 
jailing of an elderly and infirm couple. And apart from the human side of 
the issue, I can't understand it from a pragmatic cost-benefit standpoint. 
I just don't understand what Azerbaijan--or, the government of Azerbaijan, 
has gained by this.

But having said that, I would like to focus on the future and how, from a 
pragmatic standpoint, our two governments can improve the situation. I 
think it's in the interest of both countries to break out of the vicious 
circle. The conundrum is how to do it. The result of the vicious circle, 
from the standpoint of the U.S. administration, I think is understandable. 
It has basically been a policy of, at the very senior levels, indifference 
towards Azerbaijan, coupled with criticism of Azerbaijan when significant 
rule of law issues have arisen, although we still cooperate on some issues, 
such as energy, counterterrorism, and cooperation with respect to 
Afghanistan--in fact, yesterday Azerbaijan announced that it's agreed to be 
part of the new NATO support mission in Afghanistan.

With all that, I think indifference is a major driver of U.S. policy. And 
that's fully understandable, given all of the foreign policy priorities 
that are on our plate. To the extent, I think, that very senior officials 
think of Azerbaijan, it seems to have become, well, if they're going to act 
that way, why pay attention to them? The problem with that approach, again, 
although understandable, is that is serves at best to perpetuate the status 
quo, and at worst to exacerbate the situation and push Azerbaijan closer to 
its northern neighbor. And in fact, we've not made any real progress on the 
democracy and human rights front.

So how can we make progress? And it's going to be difficult. To make 
progress, I think it's important that both countries take realistic stock 
of the situation and determine their respective interests and have a 
realistic dialogue as to how to bridge differences. From the U.S. 
standpoint, Azerbaijan is important. Baku is a two and a half hour drive 
from the Dagestan border and a little over three hours from the Iranian 
border. Azerbaijan should be a critical security partner, particularly in 
the area of counterterrorism. And as mentioned before, Azerbaijan has been 
a hugely helpful partner in Afghanistan and has always been a strong energy 
partner.

It's just as important the United States do everything it can to prevent 
the Azerbaijan-Armenia conflict from escalating into more of a major 
conflict--it's been difficult in the past several months--and to do 
everything it can to resolve the conflict. At the same time, it's important 
that the United States makes clear that it fully respects Azerbaijan's 
independence and sovereignty and our goal is not to change the government, 
but that we do have values and that from a pragmatic standpoint Azerbaijan 
will have more stability by breathing oxygen into civil society, and not to 
take abusive actions that are wholly unnecessary and only serve to create 
antagonism in the relationship.

Azerbaijan also should recognize that a good relationship with the United 
States is in its interest. The United States has been hugely helpful in the 
energy area. It's quite possible that neither the Baku-Tbilisi-Ceyhan 
pipeline nor the southern gas corridor would have happened without United 
States intervention at various points. Cooperation in the security and 
counterterrorism area is just as important to Azerbaijan as it is to the 
United States. Azerbaijan must have good relations with its neighbors. But 
if it truly wants to be independent, it also needs to have a strong 
relationship with the United States. Since its independence, no country has 
spoken out more strongly for the sovereignty and independence of Azerbaijan 
than the United States.

Both sides need to try to build that trust. Azerbaijan will have to be 
convinced and believe that the United States is not seeking a change in 
government. It will need to feel secure and self-confident enough to allow 
civil society to develop without fear of instability. And it does not need 
to take the wholly unnecessary steps that have created such problems with 
the United States and much of Europe, and have hurt so many individuals in 
Azerbaijan, such as the Yunuses. Concrete steps will be necessary to 
reestablish a strong, vibrant relationship, such as the release of specific 
prisoners and lightening control of civil society.

It's not helpful for the United States to preach at Azerbaijan. We must not 
in terms of our values, but from a pragmatic standpoint. So let the 
dialogue begin. It will be difficult, it may not work, but it's the only 
possible way to break out of this vicious circle.

Ms. Han. Thank you. I appreciate your comments. Next, Ms. Bourjaily.

Ms. Bourjaily. Thank you very much for inviting me over. It's an honor to 
be present here in this room and to share my limited experience in regards 
to legislation affecting civil society organizations. I head up the 
International Center for Not-for-Profit Law. I have been assisting with 
improving legislation affecting civil society organizations globally.

And I had the honor to travel to Azerbaijan on a number of occasions. The 
last time I was there a few years ago at the invitation of Azerbaijani 
Government to discuss the new adopted law on citizens' participation. I do 
recall from my past and my work with Azerbaijani Government and 
stakeholders that there were many positive developments in this country, 
including in regards to legislation regarding civil society organizations 
and citizens' participation.

Unfortunately, I witnessed a steady, from 2009 escalating, and in 2012 
emerging deterioration of legislation affecting civil society 
organizations. And I'll take just a few minutes of your time to very 
briefly talk about status and development in a few areas the most relevant 
to activities of civil society organizations--access to resources, status 
of foreign NGOs interested in carrying out duties in Azerbaijan, sanctions 
specifically designed against civil society organizations and, last but not 
least, registration procedures, the ability to form new organizations in 
Azerbaijan.

Talking about access to resources, this is the vital right directly 
relating to ability of another human right of free association. And 
unfortunately, a study from--and I also wanted to mention in regards to 
this right, that my last conference where I was sharing was Azerbaijani 
good experience, actually. It was 2007. It was the conference in Central 
Asia. I was presenting Azerbaijan as an example because Azerbaijan had this 
notification procedure in regards to grants which was not very time 
consuming, which was not really very burdensome for civil society 
organizations, unlike a few other countries in that region.

So as I said, in 2012, the situation started to change very, very 
dramatically, especially in regards to legislation regarding access to 
businesses. First, civil society organizations started to have a real hard 
time to obtain approval through the government registration body in regards 
to their grants. And the banks would not process the concessions related to 
the funds from grants. Then there was the president's decree in 2014, which 
basically terminated the existing procedure on registration for grants.

And for some time, till 2015--till a few months ago, there was basically a 
little wind block where no no civil society organization was able to 
legally obtain any grant either local or foreign. And I don't have really 
that much information with regard to state grants, because there were some 
opportunities for groups to obtain some, but in terms of grants from 
foreign sources, the situation was really quite dramatic.

So then when a few months ago the new regulation on registration on foreign 
grants was adopted, it appeared to be extremely burdensome. And what's even 
worse, even its adoption does not allow civil society organizations to 
receive grants from foreign sources legally. One of the documents which the 
registration authority would require in order to approve a grant is a 
document on prior approval of a foreign grantor. And presently, there's no 
such procedure in Azerbaijan for foreign organizations to obtain prior 
approval.

So still, Azerbaijani organizations are still in legal limbo and cannot 
receive foreign funding. I keep talking about foreign funding because of 
its importance for financial sustainability of the civil society sector in 
Azerbaijan. I only have quite old data, it is from 2011, CSO Sustainability 
Index Report on Azerbaijan. But out of $37 million as the revenue for the 
entire sector, 34 million [dollars] come from foreign sources. So if 
organizations are not able to access foreign funding, how many 
organizations are without funding or have to find ways which perhaps are 
not entirely legal to be able to continue their activities. The situation 
is really quite dramatic.

So a few words in regards to foreign organizations who have been determined 
to assist Azerbaijani citizens and civil society. Unfortunately, there were 
a number of rules adopted over the years, starting from 2009, which first 
made it extremely difficult for foreign organizations to get registered. In 
order for a foreign organization to get registered, in addition to a list 
of documents that is required to provide to Azerbaijani government, it has 
to negotiate an agreement with the Ministry of Justice.

And the terms for negotiation of this agreement are extremely vague. The 
applying foreign organization, for example, has to prove in its application 
that its presence in Azerbaijan will benefit Azerbaijani people and that it 
will respect national moral values of Azerbaijani people. Now, these terms 
are very, very general. And they're entirely left for interpretation for 
the Ministry of Justice, the authority--the other party to the agreement, 
which does not have to justify a denial if it chooses not to sign an 
agreement with a foreign organization.

The bottom line is that I don't know many foreign organizations which were 
able to register in Azerbaijan since 2009. I know a few which wanted to, 
but of the ones which I know no one had succeeded. And those who were in 
the country, they were required to re-register. And some--quite a few had 
to shut down their activities, again, because they had to re-register and 
failed to do so. And most recently, 2014, there was additional change to 
this regulation which in addition to the procedure or--yes, the very, very 
vague procedure, it also stated that any registration granted to a foreign 
organization has to have an expiration date. So after you go through 10 
cycles or 15 cycles of bureaucracy and negotiations, then you might have to 
do it again in a year or so.

So I also want to say a few words about the extraordinary sanctions that 
are presently imposed on civil society organizations, managers, 
participants of these organizations, and also those who fund their 
activities. Frankly, I've not seen such sanctions in the code of any other 
countries. All of them are in thousands of dollars. And I wanted to provide 
you just a few examples of all these sanctions. For example, the failure to 
register a grant agreement, which costs a civil society almost $9,000--up 
to $9,000. And this is taking into consideration that the average budget 
for a civil society organization on a good year is between $10,000 and 
$50,000. I'm talking about the budget--the total revenue--$10,000 also for 
the failure to register a grant agreement.

Or, for example, if some organizations fail to receive a grant without a 
written contract, then such organization will have to pay penalty of up to 
$20,000. Again, I'm not going to list all of those, all the penalties. 
There're many, many articles, and code of administration offenses specify 
civil society organizations, managers and participants are especially 
subject to administrative offenses. Just wanted to note that in the same 
code of administrative offenses, it's a very different treatment in regards 
to regulating individuals and in regards to businesses.

For example, if a civil society organization would fail to include some 
information on their application and registration of grants, it has to pay 
up to $10,000 penalty. And at the same time, if an individual, a business, 
fails to submit tax report, individual has to pay approximately 80 manat--
80 manat, it's hard for me to exactly compare it, perhaps $90? And a legal 
entity would have to pay 300 manat, perhaps $350. So you can see the 
difference in treatment and very, very disturbing approach in regards to 
civil society organizations--$10,000 versus $350 for offense which is 
perhaps less harsh.

And so just a few words with regards to registration. There were very few 
changes in regards to legislation relating to the registering procedure in 
the past years. I can't say that it deteriorated much. I have mentioned the 
situation with the registration for the new organizations in Azerbaijan has 
been problematic for quite a while. And this was noticed in the decision of 
the European Court of Human Rights and other international organizations. 
So unfortunately, this situation has not improved much. But at the very 
least, there were no specific dramatic changes in regards to the 
registration procedure.

The only change I can recall right now related to participation of 
foreigners and people without citizenship in NGOs and civil society 
organizations. Basically, at this time only those which have permanent 
residency in Azerbaijan are permitted to be founders and managers of local 
organizations. Basically, this excludes--or this denies the right of 
freedom of association of all of the foreigners who are legally present--or 
the majority of foreigners who are legally present right now in Azerbaijan.

In order to be a permanent resident, someone has to be--prior to obtaining 
permanent residency, someone has to have a temporary residence, which 
requires legal presence in Azerbaijan for at least two years. And then, of 
course, obtaining this permanent residency is also of length and 
complexity. So the majority of foreigners who are legally present in 
Azerbaijan, they don't have the right, basically, to participate in 
associations in civil society organizations. So that's it.

Ms. Han. Thank you very much. We've been joined by Congressman Aderholt. 
Would you like to make some comments?

Mr. Aderholt. Oh, yes, just want to thank you. The schedule's been a little 
bit unwieldy today with votes right in the middle of the day. But I wanted 
to come by this hearing, having had a chance to have visited Azerbaijan on 
a couple of occasions. Just trying to understand this issue a little more. 
So just look forward to hearing your testimony.

Ms. Han. Thanks. We appreciate your participation. All right, and now 
Dinara Yunus, would you care to make your statement? Thank you.

Ms. Yunus. Thank you for inviting and organizing this meeting.

What I have to start with today is hard. I was reading the news today about 
my parents, and I read that my mom has bruises on her neck and I don't know 
why she has them. My mom has several times been attacked behind the bars by 
criminal inmates and by the major of the prison. She was the only one who 
was receiving reprimands and incarcerated when she was asking for the help. 
And those bruises would be instigated again, and I am very scared.

Basically, my mom and dad were today at the court hugging each other and 
they weren't speaking. It's very hard. And my dad had two strokes before 
his arrest, and he was never fully recovered. And he was locked behind bars 
on trumped up, bogus charges, when he was delivering food and medicine to 
my mom. My mom is diabetic and she has hepatitis C, gallstones that needs 
to be operated. She has hypertension and it's very painful for her to walk 
now after the beatings on her head by the major of the prison, and because 
she lost so much weight, and she is now seeing very poorly with that eye. 
She has crystal implants on both of her eyes that was caused because of 
diabetes, and she underwent two medical surgeries on her eye. And during 
our last meeting, actually, I was with my mom during her operation. It was 
a very hard operation, without even anesthesia, and she was in pain. But 
after the operation she finally started seeing well, and now the eyes are 
deteriorating again. My mom's becoming a disabled person.

And as for my dad--some of you perhaps heard, some of you witnessed the 
court in the summer, when my dad was basically lying on the bench and the 
court just proceeded. The doctors were called only for making him sit up 
during the trial, not because he needs the treatment. He was never 
hospitalized back then. He was taken back to Ministry of National Security 
Prison, which is not a part of Ministry of Justice and is well-known for 
torture. And when he was taken back to Ministry of National Security 
Prison, he had to undergo some certain procedures before he gets to his 
cell. So we hope he managed to lay down. After he fainted so many times, he 
had to stand for a couple of hours there as well.

Lately I heard the news that he was hospitalized, and now I'm very scared. 
They didn't hospitalize him when he was fainting at the court three times. 
They prevented an ambulance to take my dad to the ER during the April 2014 
events, when they were illegally detained at Baku Airport. So what's going 
on with him now? Is he dying? I don't know. Myself, I live in exile, so I 
have to follow the news first and then I get information from Baku. But 
it's very hard to wake up every morning and read this news. And today was 
one of those mornings when you're basically just reading that your mom 
probably--most likely was beaten up because she has bruises. So bruises 
don't come just--she used to have a lot of bruises in the beginning of her 
arrest, and now it's being repeated.

My parents are being exposed and subjected to both psychological and 
physical torture. And my dad has been in solitary confinement, so if he has 
a stroke he won't be able to call for help. And he has been there for--
since August 7th, 2014, alone in a cell. I say that he was buried alive. 
And I haven't heard anything from him. The last time I spoke to him was 
before his arrest on August 4. He told me he will deliver food to my mom 
and medicine and then he will call me, but he never did. And then I read 
the news that he was arrested.

My mom and dad, they need urgent medical treatment and they are not 
receiving it. In fact, there is a German doctor that's visiting my mom, but 
Azeri doctors have not been following any of his prescriptions. Now my mom 
has a lot of problems with side effects. She has problems in the digestive 
system; it deteriorated dramatically. She had problems in [inaudible]. And 
she has so much pain in her stomach that she can barely move. And we gave 
her the cane, and the authorities removed the cane from her.

On October 20, when my mom came to the court with my dad, they basically--
the authorities isolated both of them. They put them in the glass cage. 
They isolated the sound system. They turned off the microphone. They 
surrounded the glass cage with 25 guards so nobody can see them from 
inside. So no one can witness their true health condition.

In August, when I saw my mom's picture, I saw my grandmother. It wasn't my 
mom. Her health deteriorated so badly that she lost 20 years, I believe. 
And I see my dad in handcuffs.

And my parents are being punished for their human rights work. They've been 
in human rights for 30 years. They started during Soviet times. They worked 
in some [inaudible] back then, and the main work was a compiling of a list 
of political prisoners. And now they became a part of their horrifying list 
that keeps adding people.

I am very scared for their lives because, as I said, they are not receiving 
medical treatments at all. They have no safety. They have no security 
behind the bars. They've been charged to death sentence this summer on 
trumped-up bogus charges. My mom is sixty-eight and a half years and dad's 
seventy years. But with their health conditions, they won't survive another 
year behind bars. So something should be done to get them out right now 
because I don't want to be here next time and saying that my mom died or my 
dad died, and please help my other parent. My mom is Knight of French 
Legion of Honor. My mom is the holder of international Theodore Hacker 
Award for her human rights work. My mom is the laureate of Sergio Vieira de 
Mello Award. My mom is one of the finalists of European Parliament Sakharov 
Prize, 2014. And several days--I mean, last week my mom received here the 
Battle of Crete Award for her human rights work.

Thank you.

And I also want to say one thing. There is no safety and security for my 
parents. When my dad was laying like that, the only human rights 
organization against the tortures, they didn't even make a statement that 
my dad is being tortured like that. And it was in front of the eyes of 
representatives of the international community, and what they can do to 
them behind the bars. And the ombudsman, she also doesn't make a statement 
that my parents are in bad health condition when it's just obvious. And the 
visits of doctors have also proved that the health condition is very bad 
and they're just not receiving medical help in Azerbaijan.

Ms. Han. Thank you very much, Dinara. It's difficult to hear, particularly 
the news this morning about potentially worsening health. Mr. Aderholt, 
would you like to start with some questions, or ... ?

Mr. Aderholt. Let me just say, what are your parents actually charged with?

Ms. Yunus. They are charged with now is economical--trumped-up economical 
charges, like illegal entrepreneurship front, illegal business. And there 
is also a treason charge that is sent to another court. We still don't know 
what's going to happen with the treason charge because they were initially 
arrested by treason, and then the economical charges were added to.

Mr. Aderholt. So the charges that they're actually charged with, you're 
saying they're really just fake charges, trumped-up charges?

Ms. Yunus. Yes, for their human rights work.

Mr. Aderholt. And tell me a little bit more about some of the human rights 
work that is problematic for the government to cause them to retaliate.

Ms. Yunus. Well, when the authorities were saying that there are no 
political prisoners, my parents were presenting the list of political 
prisoners, and their list was well-recognized. Also, my parents, during the 
Eurovision song contest, my mom reported about illegal demolishing of the 
houses of Baku citizens. Seventy thousand citizens lost their houses 
illegally because of the Eurovision song contest. And when my mom's 
interview was published in Washington Post, the Institute for Peace and 
Democracy building was demolished illegally as well. It's my mom's 
organization.

And they were also--my mom was protecting the basic rights, the rights of 
assembly. She was helping people. The latest work of my parents also 
included the unique website which brought together the members of civil 
societies of Azerbaijan and Armenia so they could negotiate for future 
stability in the region. So this was their peacebuilding work. And then 
they got accused in a trumped-up treason charge.

Mr. Aderholt. I see. OK. Thank you. That's it. Thank you.

Ms. Yunus. Thank you.

Ms. Han. Thank you. I want to ask a specific question, Ambassador 
Morningstar. You laid out a couple of things that need to happen in terms 
of trying to recognize the importance of the U.S.-Azerbaijan relationship. 
And part of the problem that we hear a lot is that Azerbaijan doesn't like 
to be criticized. I mean, I guess most countries don't like to be 
criticized. But it's something that we specialize in. We criticize 
ourselves. We criticize everyone else. It's something that we're quite 
comfortable with.

And we also feel that, I think because we're friends with Azerbaijan, we 
also want to see them succeed. And part of that success is having a strong 
society and a strong foundation. And I'm just wondering, though, how given 
the impasse that we seem to be at right now with Azerbaijan and the 
crackdown that we've seen on civil society, and given the things that you 
enumerated in terms of U.S. support for Azerbaijan's energy independence, 
U.S. support for Azerbaijan in the Nagorno-Karabakh conflict, and also U.S. 
support for Azerbaijani independence over the years--why do you think that 
we continue to be sort of portrayed as the enemy of Azerbaijan just for 
criticizing the jailing of independent voices?

Amb. Morningstar. Well, I wish I knew. I can certainly speculate. 
Azerbaijan is a post-Soviet country, which I think still has an effect. I 
think there are cultural differences that can be in play. The excuse that 
comes from Azerbaijan is that they have to do these things in order to 
maintain stability. The problem with that argument is that at the end of 
the day, stability taken to its end result can justify almost anything. I 
think that Azerbaijan is a stable country. And as I said in my opening 
statement, that the actions that they've taken, in my view, are from in 
fact a values standpoint unacceptable.

They just don't make sense. I mean, why is it necessary? You know, why are 
the Yunuses in jail? What is the Azerbaijani Government gaining from the 
Yunuses being in jail, other than creating difficulties in their 
relationships with the United States and with other Western countries? I 
mean, to me it seems counterproductive. I do think that among some in the 
Azerbaijani Government there really is a belief that we are trying to 
overthrow them. I think they get a stream of propaganda from their friends 
from the north, which help to poison the relationship. And they think that 
our support for NGOs is an attempt to overthrow their government. And, I 
mean, my response to that is, for the limited amount of support that we 
have given the nongovernmental organizations in Azerbaijan, if that really 
creates this threat, that some, I think, really do believe, then there must 
be a lot of insecurity.

And, you know, again, I want to go back to the positive. I don't think at 
this point we should give up on Azerbaijan, but I think that at a high 
level we have to have a very serious dialogue as to what our common 
interests are, what we require on both sides for us to have a strong and 
vibrant relationship.

And again, the Government has to believe that we're not out to get them, 
but on the other hand that if we're going to have that relationship, that 
there needs to be some progress, particularly with respect to the kinds of 
cases that we've been hearing about, the Yunuses and others, and progress 
with respect to NGOs, and in fact, that, at the end of the day, might give 
more stability to the government rather than less.

Ms. Han. Thank you.

I'm going to ask a question of Ms. Bourjaily. And then, unless Mr. Aderholt 
has questions, we'll open it up to the floor for questions. So you can 
start thinking if you have questions to ask. I'll start calling on people.

Ms. Bourjaily, this phenomenon of NGO legislation is not new and it's not 
unique to Azerbaijan. We've seen it in Russia. We've seen it in China. 
We've seen it across Central Asia, and other places. But it seems to me 
that the extremes to which Azerbaijan has gone is not necessarily 
replicated elsewhere. For example, I believe that the donor registration 
requirements are not seen anywhere else, as far as I know. Is that 
according to your experience as well?

Ms. Bourjaily. Actually, both the donor grant approval and also the 
approval of grants is not to be seen anywhere in Western and Central Europe 
or the United States. So if we talk about Eurasia, some countries in 
Eurasia, there are a few examples in the Eurasian region, for example in 
Belarus, Turkmenistan, in Uzbekistan, where pre-approval of grants from 
foreign sources is required. But even in this region and even in these 
particular countries, nowhere--there are basically three levels of 
procedure, three stages of procedure in order for civil society 
organizations basically not to receive grants from foreign sources.

Azerbaijan is the only one which would require foreign organizations to 
formally register their offices in Azerbaijan--and I touched very briefly 
how difficult it is to do in Azerbaijan--in order to give grants. So first 
to register offices. Second, to get government's approval, government's 
registration as grantors in addition to registered offices before they 
start giving out grants. And as I mentioned, such a procedure doesn't exist 
in Azerbaijan. And third, all recipients have to register, with the 
Ministry of Justice, every single grant and every single subgrant and every 
single change within the grant agreement with the Ministry of Justice. Such 
a three-stage system is nonexistent anywhere.

And, again, to give a very simple and straightforward answer to your first 
question, there is no requirement for pre-approval for foreign 
organizations to give out foreign aid in any country.

Ms. Han. Thank you very much. Mr. Aderholt, anything before we----

Mr. Aderholt. I don't have anything. You can go ahead with the questions. 
Thank you.

Ms. Han. OK, so we're going to open the floor for questions. What we're 
going to do is this first mic on the end is going to be the question mic. 
If you could wait for me to call on you, I'll call on you and you can come 
up and ask your question, because if we have some people lined up there, it 
will be in front of the camera. So if there's anyone who has questions you 
can raise your hand and let me know.

Yes? And if you can please identify yourself and then ask your question, 
thank you. And sorry it's not very convenient. You have to lean down, but I 
think it will work.

Question. I'm Matthew Howlett [ph] from Freedom House. Two basic questions 
I wanted to ask. Are individuals and entities guaranteed a fair trial in 
Azerbaijan? We keep hearing about major steps it is taking to intervene, 
for example disbarred lawyers and et cetera. And the second, I just want to 
hear about the record of Azerbaijan in regards to rulings by the European 
Court of Human Rights, and if there have been any reprisal against those 
that participate in giving testimony and bringing cases in front of the 
European Court of Human Rights. Thank you very much.

Ms. Han. All right. Dinara, do you want to talk about free trials? I think 
you gave us a little bit of a flavor of what some of the difficulties have 
been for your parents, but I think one of the key points is that, you know, 
for example, Matthew mentioned the disbarring of lawyers and the difficulty 
that lawyers have in representing prisoners, political prisoners, and the 
strain and the stress that they come under. So maybe you could talk about 
your parents' lawyers and what problems they've been experiencing.

Ms. Yunus. Well, there is a constant pressure on the lawyers of my parents. 
Two of them were removed from the court last year. One was brought to the 
case as a witness but he has not been yet called on the court.

The third lawyer--one of the lawyers was disbarred from the bar 
association, so he can't protect, anymore, my parents or anybody else. The 
third lawyer was sentenced to 240 hours of community service. And he was 
sentenced because he was the first one who spoke about the beatings and 
attacks and humiliations my mom was exposed to behind bars. And the case 
against him was brought by my mom's inmate, who was constantly attacking my 
mom, and she won the case. And he received 240 hours of community service. 
And recently he was also disbarred.

And the court itself, well, there is no fair court. Otherwise my parents 
would be free now, or at least it will be open for the public. Economical 
charges means that the court will be public, so everybody can go and watch 
the court. But in my parents' case the court was actually a closed-door 
court. There were a lot of people inside the court that were coming from 
the back door while everybody was waiting at the front door to get in. Some 
of those unknown people are saying that they are our relatives, but when 
they were asked the names of my grandparents they didn't know.

Sometimes the representatives of the international community could get in, 
but without translators, and some of them didn't speak any Azeri or Russian 
so they didn't understand. They put my parents behind the glass cage, while 
in the normal societies--civil societies in Western countries they should 
have sat near their lawyers. And there were never the cases that a 
political prisoner could actually walk free from that court.

Ms. Han. Thank you. I appreciate that.

And then on the European Court of Human Rights question, Natalia, do you 
have something to say? And if you have a comment, you can chime in as well.

Amb. Morningstar. My only comment is I think, given the work that Freedom 
House does, I think the questioner knows the answers to those questions 
that he's asked. And so it's a little bit like in an American courtroom 
case the lawyer is asking the question where he knows the answers. And I 
think it is a statement of fact that--as far as the European Court of Human 
Rights, that the decisions have not been followed. I state that just as a 
matter of fact.

Ms. Han. Thank you for that.

Ms. Bourjaily. [Inaudible]--of European court cases in regards to 
legislation relating to civil society organizations, that there were a 
number of rulings where Azerbaijani was. Two of the most, let's say, famous 
cases, for example Ramaznova, and obviously against Azerbaijan, and 
Israfilov, obviously against Azerbaijan, both related to the issue with 
establishment of new civil society organizations with a registration 
procedure. These cases are quite old but the same problems remain today. 
Even though there's 40 days--the registration authority, the Ministry of 
Justice, has 40 days to process the registration application. It usually 
doesn't meet this 40 days requirement. The registration procedure takes 
much longer, if registration ever takes place. And as with these two cases 
where Azerbaijan lost, the reasons for denial of registration are very 
technical and do not meet the standards for the test whether those are 
acceptable limitations on the freedom of association.

Ms. Han. Great. I learned just this week that in the case of Ilgar 
Mammadov, who is still in prison despite the European Court of Human 
Rights' ruling earlier this year that the charges against him were 
politically motivated, his case is still being bounced back and forth 
between courts in Azerbaijan. And the Council of Ministers, every--I think 
it's every three months, has been voting--or issuing statements asking 
Azerbaijan to abide by the decisions on that ruling, and that has not 
happened yet. So I think, it's pretty clear to see right now the European 
Court of Human Rights is not a viable option for citizens of Azerbaijan to 
seek redress.

Are there any other questions? Yes? Could you come up to the mic? Thanks.

Questioner. I'm from Congresswoman Slaughter's office. And what can you 
tell us about regional variations in Azerbaijan? Is the situation kind of 
the same across the whole country? Is it worse in the exclaves? Is the 
situation about the same in the countryside?

Amb. Morningstar. I really don't consider myself expert enough on the 
specific cases to compare regions in Azerbaijan. I know there are 
difficulties in virtually--different kinds at different times--in virtually 
all of the regions.

I would want to make one other point, though. And I thought that you were 
going to ask, how would you compare Azerbaijan to other countries in the 
region, particularly, for example, the Central Asian countries, many of 
which have significant problems. And one of the criticisms of the United 
States comes from Azerbaijan. This relates back to the European Court of 
Human Rights.

One of the criticisms leveled at the United States and the West by the 
Azerbaijani Government is that there are double standards, and that we 
criticize Azerbaijan more harshly than we do other countries in the region, 
maybe in other parts of the world. And I think it's fair to say--and there 
are certainly other--many other--several other countries that have abuses, 
but I think the difference that militates against the double standard 
argument is that the government--Azerbaijan is a member of the Council of 
Europe. They are a member of OSCE. So they have obligated themselves to 
comply with various standards.

And I wrote a piece three or four months ago not just about Azerbaijan but 
basically saying that countries that have signed on to these organizations 
should be held to a higher standard. And Azerbaijan does talk in terms of 
itself as being a democracy, constantly. And again, there have been a lot 
of accomplishments in Azerbaijan. You know, we have to be fair and 
balanced. But because of their agreeing to become members of these 
organizations, I think they need to be held to a higher standard and need 
to comply with what they've agreed to.

Ms. Bourjaily. I'm also not an expert in terms of the implementation, 
especially in the regions, but the information that I receive from our 
local partners from Azerbaijan--according to this information, 
unfortunately the restrictive legislation is being implemented quite 
consistently throughout the country because of its centralized manner. For 
example, no NGO, whether it is based in Baku, anywhere in the region can't 
receive a grant from a foreign source. The registration procedure is same 
and implementation is quite consistent.

In 2014, my colleagues celebrated the decentralization of the registration 
of civil society organizations, and finally which now branches of the 
Ministry of Justice were authorized to register new organizations, which 
would have saved--and is supposed to save--time and money for local groups 
who don't have to travel from regions to Baku on numerous occasions in 
order to try to register their organization. Unfortunately--again, this is 
only according to information from our partners because official 
statistics, official information, is not available--unfortunately it is 
still very difficult to register new civil society organizations throughout 
the country.

At the same time, in regards to what we consider progressive legislation, 
for example the citizens' participation legislation, the new law on citizen 
participation, here we see implementation which very much varies from one 
region to another. Some--[inaudible]--the local governments are much more 
interested in citizens' participation and do use consultations with 
citizens and civil society organizations than others. So we do see 
consistency throughout the country in regards to the restrictive 
legislation, but unfortunately it's not as consistent in regards to the 
better legislation.

Ms. Han. Any other questions from the audience? Yes.

Questioner. Thank you. My name is Hayk Nahapetyan. I am correspondent for 
the Armenian Public Television. My question is for Mr. Morningstar.

During the period when you were ambassador to Baku there were reports that 
you attempted to visit the Jugha Armenian cemetery, which is in Nakhchivan, 
and that the government of Azerbaijan did not allow this to happen. I was 
wondering if you could provide some details on this.

Number one, what was the reason for the government to stop your visiting 
this site? And the second question, even though they prevented this visit 
from happening, do you have your source of information about what really 
did happen in the historic Armenian cemetery in Nakhchivan? Thank you.

Amb. Morningstar. This is an issue that came up very, very shortly after I 
arrived in Azerbaijan. It was also a matter of testimony in my confirmation 
hearings, and this was something that Senator Menendez felt very strongly 
about.

I went to Nakhchivan within months after getting to Baku and asked for 
permission to go to Jugha. I was not specifically denied permission but 
basically was told that the government, in particular the government of 
Nakhchivan, made it impossible for me to go. You know, I would have 
basically had to have gone on my own with no security, transportation that 
probably--that didn't exist. So they clearly--you know, the government 
clearly didn't want me to go. The reasons they said was security, because 
it was just over the river from Iran, and they made the argument that they 
couldn't control what Iranian border guards might do, or whatever.

So at the time, the effort that we made--that I made and we at the embassy 
made, was we issued a statement--if you go back, you'll find it--saying 
that, yes, it was impossible to go. And what I did do immediately 
thereafter was to visit what had been the Armenian church in Baku where the 
Azerbaijanis were maintaining many of the records from pre-war. We made an 
effort to try and develop cooperation between Azerbaijan and Armenia to 
protect religious sites in both countries. And so we tried to take a 
balanced approach.

And that's what happened. I can't really say much more about it. This is 
now three years ago. That's what happened.

Question. I was just wondering if you have information whether the Armenian 
monuments still exist in Nakhchivan in Jugha Cemetery, or if they have been 
abolished, as the reports--evidence suggests. Thank you.

Ms. Han. Yes.

Amb. Morningstar. Yes, I'm not really in a position to talk about it. There 
are photographs taken. I can't tell you exactly what they mean. There's 
conflicting evidence on both sides and I'm really not in the position to 
make a judgment.

Ms. Han. Any other questions from the floor? I wanted to ask Ambassador 
Morningstar a question.

You know, one of the things that we're getting increasing reports about, 
not only the persecution of these civil society activists by using the 
judicial system to persecute these civil society activists, but also, now 
that they're in jail and on trial, their families are also being 
persecuted.

We're getting increasing reports about the relatives of these people who 
are losing their jobs--a large number of people, and some parents are being 
asked to denounce their own children. And it seems like this is a throwback 
to perhaps the Stalin era, and certainly not a development that we would 
want to see in a democratic country.

And I'm wondering--the question is really that--we look at this as a legal 
issue. These are trials that are being conducted. But perhaps this is 
better geared to the political lens, that this is more of a political 
issue. And then if it is a political issue, how do we solve this 
litigation?

Amb. Morningstar. I've heard--certainly at different times have heard the 
same reports that you've heard. I really can't say anything more than that, 
other than having heard in the reports what you heard. But I think you're 
right that, at the end of the day, the solution to these problems, at least 
at this point, will not be through legal means but will be through 
political means. And that's why I come back to the point that I harped on 
during my opening statement, that we have to look at these issues.

As difficult as these issues are, we have to look at it pragmatically. We 
have to look at it and argue it from the standpoint of what's in 
Azerbaijan's interests, and really, at a high level, conduct a dialogue 
talking about what's in each country's interests and how resolution of 
these issues politically really is necessary--or is necessary to have a 
very strong, vibrant relationship, which I think is important to both 
countries. It's just as important, I think, to Azerbaijan as it is to the 
United States.

And, you know, I think we have to try. If it doesn't work, it doesn't work. 
You know, we have done our best to--I think the policy has been to 
compartmentalize issues for the democracy and human cases, not spill over 
into energy and counterterrorism and the like. And in order to maintain 
that, I think there has to be a re-evaluation of the relationship on both 
sides and some real progress on the democracy and human rights.

Ms. Han. Great. Thank you. Yes?



Question. Hello. My name is Araf Hildobonzaid [ph] and [inaudible]. My 
question is to Ambassador Morningstar. Sir, have you ever tried to visit 
cemeteries, or vandalized cemeteries, in Nagorno-Karabakh of Azerbaijanis? 
There are many, many cemeteries of many villages, Azerbaijani villages, 
that were vandalized. Have you tried to do this? Do you have any statements 
about this? And also one more. There's also many cemeteries that--
Azerbaijani cemeteries in the current Armenian Republic. Do you have any 
views? Have you had any statements about that? Thank you very much.

Amb. Morningstar. The answer is, have I tried to visit the cemeteries? No, 
but what I can say is this--and I said it at the time, that I did not visit 
Jugha. What I said was that there is clear evidence that there have been 
problems on both sides with respect to cemeteries, and that what was 
important was that Azerbaijan and Armenia agree that the religious sites 
are off limits as far as abusive actions.

So I think there probably is enough blame to go around--but the answer to 
your direct question is, no, I have not tried to visit any other 
cemeteries.

Ms. Han. OK, I'm going to wrap up with the last question, for Dinara.

Obviously the responsibility for your parents' well-being and their safety 
in the prison, and also the responsibility for their trial, rests in the 
hands of the Azerbaijani Government, but what would you like to see the 
U.S. and the EU agree to, to help their situation? How can we be helpful?

Ms. Yunus. My parents are very ill. They need hospitalization and medical 
treatments. The treatment behind bars is a joke. Azeri doctors are not 
helping my parents. I think the international community should be more 
vocal in calling for their releases. There should be a common call, be more 
vocal--thank you.

Ms. Han. Great. Thank you very much. And thanks, everyone, for attending. I 
thank Ms. Bourjaily and Ambassador Morningstar, Dinara and Mr. Aderholt. 
Thank you for coming. And our briefing is concluded.

             [Whereupon, at 3:11 p.m., the briefing ended.]

 

This is an official publication of the Commission on

       Security and Cooperation in Europe.

                   * * *

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

                   * * *

All Commission publications may be freely reproduced,

in any form, with appropriate credit. The Commission

encourages the widest possible dissemination of its

publications.

                   * * *
                   
http://www.csce.gov       @HelsinkiComm

The Commission's Web site provides access

to the latest press releases and reports,

as well as hearings and briefings. Using the

Commission's electronic subscription service, readers are

able to receive press releases, articles, and other

materials by topic or countries of particular interest.

           Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
